PAUL, WEISS, RTrKIN11, WHARTON & CiARRISON LLP
NEW YORK. NEW YORK 10019-6064

1285 AVENUE OF THE AMERICAS
TELEPHONE

•2 I

z, 37<1·3000

UNIT 5201. !"OR.TUNE F'INANCIAL CENTEFI
9 OONG5ANHUAN ZHONGI..U
CHAOYANG DISTRICT, 8e:!JING 100020. CHINA
'rEl..EPHONE 186-IO• 5828-6300
HONG KONG CLUB BUILDING. 12TH F!,._OOR
3A CHATER ROAD CENTRAL
HONG KONG
TELEPHONE ,B'521 284E!-OJOO

WRITER'S DIRECT DIAL NUMBER

(212) 373-3254

ALDER CASTLE
10 r-lOBl.l: STREET
LONDON EC2V 7JU UNITEO KINGDOM
TELEPHONE 144 20• 7Jl!l-7 1600

WRITER'S DIRECT FACSIMILE

(212) 492-0254

ruKOKIJ SC:IMEl BUILDING,
;;:-,.: Uo;.HtSAJWA!CHO 2··CHOME
CH!YODA-KU. TOKYO 1 00·00 I I JAPAN
TELEPHONE ·81-3, 3!597-8101

WRITER'S D1RECT E-MAIL ADDRESS

jhurwitz@paulweiss.com
November 20, 2020

TORONTO•DOMINION CENTRE
77 KING STREET WEST, SUITE 31 00
PO i'IOX 226
TORONTO. ONTARIO M5K !J3
TELEPHONE <4 J 6, 504·0520
200! K STREET NW
WASHINGTON. OC: 20001!1· 1047
TEUCPHONE {202• 22�·7300

BY ELECTRONIC FILING

500 OELAWARE AVENUE, SUITE 200
POST OFFICE BOX 32
WlLMINGTON. DE 198SIP·0032
TELEPHONE 1302, 655•4410

Mr. Scott Harris
Clerk
Supreme Court ofthe United States
One First Street, N .E.
Washington, DC 20543
Re:

United States Department ofHomeland Security, et al. v. State ofNew
York, et al., No. 20-449

Dear Mr. Harris:
I represent respondents Make the Road New York, African Services
Committee, Asian American Federation, Catholic Charities Community Services
(Archdiocese ofNew York), and Catholic Legal Immigration Network, Inc. (collectively,
the "MRNY Respondents"), in this matter. Pursuant to Supreme Court Rule 30.4, the
MRNY Respondents request a second 30-day extension oftime in which to file a
response to the petition for a writ ofcertiorari in this case. The response is currently due
on December 9, 2020. Ifextended, the MRNY Respondents' response would be due on
January 8, 2021.
The MRNY Respondents seek this additional time for substantially the
same reasons as set forth in the parallel extension request filed by respondents the States
ofNew York, Connecticut, and Vermont, and the City ofNew York (collectively, the
"Government Respondents"). That is, the MRNY Respondents need to consult
internally, with our clients, and with the Government Respondents regarding the impact
ofthe recent presidential election on this matter.
We have conferred with counsel for petitioners, who have stated that they
oppose this request on the ground that it would push the Court's consideration ofthe
petition past the cut-off date for cases that could be argued this Term. The Court,
however, has stayed the preliminary injunction on appeal until it either denies certiorari

PAUL, WEISS, RIFKIND, WHARTON & GARRISON I.LP

2
or issues a judgment 140 S. Ct 599, 599 (2020). The requested extension will not affect
that stay.
Should you need any additional information, please do not hesitate to let
me know.

Respectfully,

<J

Jonath

cc:

Benjamin W. Snyder (counsel for petitioners)
Steven C. Wu (counsel for respondent State of New York)
William Tong (counsel for respondent State of Connecticut)
Thomas J. Donovan, Jr, (counsel for respondent State of Vermont)
James E. Johnson (counsel for respondent City of New York)

